                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

11   Case Number: A06040013                                                                   Page 1 of 2



                   We received an allegation that a subject1submitted an NSF proposal (Proposal 12)
          containing plagiarism. Initial analysis of this proposal and two other proposals (Proposal Z3 and
          Proposal 34) identified potential plagiarism. After receiving the Subject's response to our inquiry
          letter, we reviewed three additional proposals (Proposal 45, Proposal 56, and Proposal 67)by the
          Subject and identified additional potential plagiarism. Because the evidence warranted an
          investigation, we referred the matter to the ~niversity.~

                 The Investigation Committee concluded, based on a preponderance of evidence, that the
          Subject recklessly andlor knowingly committed plagiarism, which it deemed a significant
          departure fiom accepted practices.

                 The Deciding Official imposed the following sanctions: The Subject: 1) complete a
          course on research misconduct; 2) teach a graduate-level University course about scholarly
          misconduct; 3) obtain assurances before submitting proposals for one year or five proposals,
          whichever is longer; and 4) refiain fiom serving as an NSF reviewer for one year.

                  We concurred with the University assessment, and examined a proposal the Subject
          submitted during the ongoing University in~esti~ation.~ We identified additional plagiarism. In
          total we concluded, based on a preponderance of the evidence, that the Subject knowingly
          committed plagiarism in 7 proposals, which was a significant departure fiom accepted practice.




1NSF OIG Form 2 (11/02)
i
$ #j
   $ $                                                               NATIONAL SCIENCE FOUNDATION
                                                                      OFFICE OF INSPECTOR GENERAL
                                                                        OFFICE OF INVESTIGATIONS


             yi" ,
 4
 0                                                             CLOSEOUT MEMORANDUM

cask umber: A06040013 ,                                                                                       Page 2 of 2


                          I
                                      Additionally, because one of the seven was an awarded SGER proposal containing
                              plagiarism within the work plan, and because the NSF Program Director said he awarded the
                          I   proposal because he thought the copied idea the Subject presented to him both in person and in
                              writing was original, we presented the case to an Assistant United States Attorney (AUSA). The
                          '
                              AUSA declined in lieu of strong administrative actions.

                                  We recommended in our report of investigation that NSF: 1) make a finding of research
                        I misconduct against the Subject; 2) send the Subject a letter of reprimand; 3) debar the Subject
                       I from receiving Federal funds or participating in any federally-funded project for a period of 2
                      , years; 4) require certifications from the Subject for a period of 2 years following debarment
                          period; 5) require assurances from the Subject for a period of 2 years following debarment
                      I period; 6) bar the Subject from serving NSF as a reviewer, advisor, or consultant for 2 years; and
                      t 7) require certification of attending an ethics class within 1 year. The Deputy Director accepted
                          our recommendations.

                      I     The Subject appealed the Deputy Director's finding and sanctions, and sent the Director
                   1 additional documentation. The Director upheld the finding of research misconduct and all other
                     non-debarment sanctions. Based on the appeal, the Deputy Director chose to debar the Subject
                  'I
                     for 18 months rather than the original two years. The Subject presented no further appeals.
                  I



                  r
                                     This memo, the attached Report of Investigation, and the Deputy Director's and
                              Director's letters constitute the case closeout. Accordingly, this case is closed.

                 I




             'I

             I




         I

             1


         I



     I


     I
    National Science Foundation
    Office of Inspector General




                     Confidential
                 Investigation Report
               Case Number A06040013
                       September 29,2008


This Confidential Investigation Report is the property of the NSF O IG and may be disclosed outside
                                                                                   ss
   NSF only by OIG under the Freedom of Information and Privacy Acts, 5 U.S.C. 552,552a.

                                                                                  NSF OIG Form 22b (1 1/06)
                                     Executive Summarv

Allegation:       Plagiarism.

OIG Inquiry:      OIG identified 23 source texts from which approximately 269 unique lines, 4
                  unique figures and captions, and 19 unique embedded references were
                  apparently copied into 3 awarded and 3 declined NSF proposals. OIG
                  referred the matter to the Subject's home institution.

University
Inquiry:          University conducted an inquiry into the allegation and concluded there was
                  sufficient evidence to warrant an investigation.

University
Investigation
and Action:       Investigation Committee concluded, based on a preponderance of evidence,
                  that the Subject recklessly andor knowingly committed plagiarism, deemed a
                  significant departure from accepted practices.

                  Investigation Committee recommended that the Subject: 1) complete a course
                  on research misconduct; 2) teach a graduate-level University course about
                  scholarly misconduct; 3) obtain assurances before submitting proposals for
                  one year or five proposals, whichever is longer; and 4) refrain from serving as
                  an NSF reviewer for one year. Deciding Official concurred with the
                  recommendations.

OIG Assessment:      OIG concurs with the University assessment, and hrther examined an
                     awarded proposal the Subject submitted during the ongoing investigation.
                     OIG identified 34 lines and 11 embedded references plagiarized from 6
                     sources in the proposal.

                             The Act: The Subject committed plagiarism in 7 proposals, 4 of
                             which were awarded.
                             Intent: The Subject acted knowingly.
                             Standard of Proof: A preponderance of evidence supports the
                             conclusion that the Subject committed plagiarism.
                             Significant Departure: The Subject's plagiarism represents a
                             significant departure from accepted practices.
                             Pattern: The Subject submitted a proposal containing plagiarism
                             even after we informed him about our investigation.

                     An awarded SGER proposal contained plagiarism within the work plan.
                     When interviewed, the Program Director said he awarded the proposal
                     because he thought the idea the Subject presented to him both in person
                     and in writing was original. OIG presented the case to an AUSA who
                     declined in lieu of strong administrative actions.
OIG Recommends:
                  Make a finding of research misconduct against the Subject.
                  Send the Subject a letter of reprimand.
                  Debar the Subject from receiving Federal funds or participating in
                  any federally-hnded project for a period of 2 years.
                  Require certifications from the Subject for a period of 2 years
                  following debarment period.
                  Require assurances from the Subject for a period of 2 years
                  following debarment period.
                  Bar the Subject from serving NSF as a reviewer, advisor, or
                  consultant for 2 years.
                  Require certification of attending an ethics class within 1 year.
                                          OIG's Inquiry

        The National Science Foundation (NSF) Office of Inspector General (OIG) conducted an
inquiry into an allegation that the subject' submitted an NSF proposal (Proposal 12)containing
plagiarism. Initial analysis of this proposal and two other proposals (Proposal 23 and Proposal
34) found approximately 225 unique lines, 3 unique figures and captions, and 17 unique
embedded references5 apparently copied from 16 source texts.6

        OIG contacted the Subject about the allegation.7 The Subject responded that: 1) he
collaborated with some of the authors of five of the source texts;' 2) 13 source texts did not
require citation because they described "well-known and previously published technical
inf~rmation;"~   3) authors of 14 of the source texts provided written permission for his use of
their text;'' 4) he had never seen five of the source texts NSF annotated;" and 5) technical
problems affected the hyperlink to one of the source texts.12

        OIG reviewed the response and found that the Subject solicited source authors'
permission after learning of the plagiarism allegation and without sufficiently explaining the
extent of the exact text copied. We also found that 'identical text' the Subject provided from
other sources was either not identical to the text OIG annotated or was authored by the source
text author. Lastly, we found that the Subject's inclusion of embedded references suggested the
Subject accessed the source texts OIG identified. We were therefore not persuaded that the
Subject adequately explained his actions.

       OIG reviewed three additional proposals (Proposal 413, Proposal 514, and Proposal 615)by
the Subject and found another approximately 44 unique lines, 1 uni ue figure and caption, and 2
unique embedded references apparently copied from 9 source texts.76




   texts.
     Tab 4, A-P.
     Tab 5.
     Tab 6 , pg 1.
     Tab 6 , pg 2.
   'O Tab 6 , pg 3.
   11
   ..Tab 6 , pg 3.
      The following chart summarizes the allegedly copied text, figures and captions, and
embedded references in each proposal:
                   Proposal 1   Proposal 2     Proposal 3      Proposal 4      Proposal 5         Proposal 6       Total         Total
    Source         (Declined)   (Declined)     (Awarded)       (Awarded)       (Awarded)          (Declined)                     (Unique)
                                17 lines;                                                                                        17 lines,
                                2 figures +                                                                                      2 figures +
                                captions;                                                                                        caption;
                                7 embedded                                                                                       7 embedded
    A              2 lines      references     2 l~nes '                       2 lines                                           references
                   17 lines;                                                                                                     17 lines;
               I   7 embedded                                                                                                    7 embedded
    B              references                                                                                                    references
    C
    D
                   13 l~nes
                   5 lines
                                .                                                                                                13 lines
                                                                                                                                 5 lines
    E              3 lines                                                                                                       3 lines
    F              6 lines                     59 lines                                           26 lines                       59 lines
    G                           13 l~nes                                                                                     -   13 lines
    H                           5 lines                                                                                          5 lines
                                                                                              I
    I                            5 lines                                                                                          5 lines
                                23 lines;                                                                                        23 lines;
                                1 figure +                                                                                       1 figure +
    J                           caption                                                                                          caption
K
-                               15 lines                                                                                         15 l~nes
                                15 lines;                                                                                        15 l~nes;
                                3 embedded                                                                                       3 embedded
    L                           references                                                                                       references
    M                                           5 lines                                                                          5 lines
    N                                           6 lines                                                                          6 llnes
    0                                           7 lines                                                                          7 lines
    P                                           17 lines                                                                         17 lines
-Q                                                             19 lines                                                          19 lines
                                                               I l lines,      6 lines;
                                                               1 figure +      1 figure                                          I figure +
    R"                                                         captlon         +caption       I                I                 caption
    sI8                                                        5 llnes
    T                                                          7 llnes                                                           7 lines
                                                               3 Ilnes;                                                          3 lines;
                                                               2 embedded                                                        2 embedded
    U                                                          references                                                        references
    V                                                                           I1 lines                                         I l lines
    W                                                                          5 lines                                           5 lines
                                                                                                                   329.5
I                               93 lines;                      45 lines;
                                                                                                                   lines;
                                                                                                                   5 figures +    269 lines;
                                3 figures +                    1 figure +                                          caption;      4 figures +
    Total          46 lines;    captions;                      caption;        24 lines;                           19            caption.
    (Non-          7 embedded   10 embedded                    2 embedded      1 figure +                          embedded      19 embedded
    Unique)        references   references     96 lines        references      caption            26 lines         references    references




          17
             The Subject corr/ectly noted that the text from Source R is identical to text in Source A.  ow ever;
                                                                                                                OIG notes that the figure
          and caption from Source R does not appear in Source A, suggesting the Subject accessed Source R (Tab 4).
          18
             The Subject correctly noted that Source S and T contain the same text, OIG noted that in its original annotation (Tab 4).
                                                                         5
         As illustrated, some of the same copied text was repeatedly used. We concluded there was
         sufficient evidence to proceed with a detailed investigation, and referred the matter to the
         university .Ig
                                       Universitv Inquirv and Investi~ation

                 As per University         the University conducted an inquiry. Based on the in uiry,
         the Interim Vice President for ~esearch" concluded that "an investigation is warranted"' and
         convened an Investigation Committee (Committee). The Committee examined documents OIG
         provided and interviewed the subject" and his Departmental Chair (chair)."

                 In the Subject's interview and accompanying Powerpoint presentation:5 he said the
         allegation stemmed from:

                            [His lack of] Awareness of what constitu/tes plagiarism in
                            research proposals as proposals are
                                o unpublished and open to select reviewers and not to
                                    public forum.
                                o Proposals are judged based on their originality of its [sic]
                                    ideas and not for the articulation of well known facts . . .
                            The changing fa& of 2 1" century medium of communication
                                o electronic medium - wikipedia
                                o dynamic websites
                                o electronic version of proposals being submitted
                            Multi-investigator proposals in interdisciplinary field
                            Lack of funds necessitating increase in the submission rate
                            Last minute submission of proposals due to over-commitment [261

                 More specifically, the Subject explained each section of the copied text. First, the
         Subject said: he did not have to and/or did not know he had to cite certain materials; the majority
         of the allegedly copied material was established fact or part of the proposals' introduction; and
         the material was not being published.27The Subject said in his interview:
                        I was not stealing my data . . . [or] work plan from anybody. . .
                        Yes, what I took was because well established facts and because
                        one thing, I was thinking maybe since I was not publishing it, and



                                 Tab 10 contains the Referral Letter.



      Tab 12: University Inquiry Report.
    23
      Tab 13. During his inieiiew ( ~ a 13,b pg 28-30), the Subject showed the Committee excerpts of an NSF proposal
    he reviewed, alleaing that it contained plagiarism. The Committee reminded him that he is required to destkv NSF




I   26Tab 13,PPslide240f51.
    27
       Tab 13, pg 5 and 27.
                         it was not being presented in public for, I thought there was no
                         copyright violation involved in it . . . [281

          Also, the Subject said that, in at least 5 cases, "the technical nature of the subject does not permit
          substantial change in the format" and that "[alt least two other sources [were] provided to justify
,         such cases that contain the same text as it appears in my proposal."29

                   Second, the Subject said he either had or subsequently obtained permission to use the
I,
          material. He said he had permission to use five source texts that his collaborators wrote.30He
          said, in at least 3 cases, he "or the co-PI had prior permission or interaction with the researchers
          who were authors or were in-charge of the source^."^' Moreover, the Subject said he contacted
          authors of 13 affected source texts and "no author had any objection to the use of their verbatim


                  Third, the Subject contested certain sources OIG annotated. He said he did not use at
          least 8 of the alleged source texts.33He noted that annotated text from Source U and Source A
          was identical as was annotated text from Source S and Source T . The  ~ ~Subject further said one
          source text contained work from the Subject's website that had been removed.35

I
                  Lastly, the Subject said "increasing the number of [proposal] submissions led to robably
          an oversight" and "left me with little time to go through the proposals more carehlly. &H !'e
          added that "referencing is one things that takes the most time and with all the work especially the
          2 or 3 [NSF] review panels the semester . . . and with all the proposals, I mean, it was, it did
"




          come down to time."37

                  In his interview, the Chair explained that the Subject was under pressure to submit
          proposals and receive funding, adding "I think it was just an accident, I think it was
          careles~ness."~~  The Chair also said the Subject might "not have been familiar with plagiarism
          rules as some of us are that have been in the country for a long time,"39 adding he didn't know
          "if [the Subject] had a [faculty] mentor."40                       ,

                 The Committee completed its investigation and provided OIG with its "Final Report of
          the Scholarly Misconduct Committee" ( ~ e ~ 0 1 -and
                                                            t ) ~documents
                                                                  ~        related to the investigation.


                                                                                      /

     28Tab 13, pg 36.
            b PP slide 28 of 51.
    29 ~ a 13,                                                f
            b PP slide 28 of 51.
    30 ~ a 13,
    3' Tab 13, PP slide 28 of 51.
    32 Tab 13, PP slide 29 of 5 1.
            b PP slide 28 of 51.
    33 ~ a 13,
            b PP slide 28 of 51.
    34 ~ a 13,
    35 Tab 13, pg 20.
    36
       Tab 13, pg 11.
    37 Tab 13, pg 34.
' , 38 Tab 14, pg 72.
    39 Tab 14, pg 76.
, 40 Tab 14, pg 70. Note that training in research ethics is an institutional responsibility: "Awardee institutions bear
    primary responsibility for prevention and detection of research misconduct . . ." 45 C.F.R. $689.4(a).
    4' Tab 15.

                                                                7
             The Committee found "a significant number of sections of [the Subjectl's proposal text
     that were identical or substantially similar to the alleged source document^."^^ It concluded
     "these sections were not properly attributed nor were they distinguished from [the Subjectl's
      material^."^^ However, the Committee found that in all but the SGER proposal,44''the plagiarized
     material was found to be in the introductory sections of the proposals analyzed and not in the
     specific aims, work plan, or significance sections."45

             The Committee members unanimously agreed that "the preponderance of evidence
     proved that [the Subject] committed plagiarism as defined by NSF regulations, and . . . that the
     plagiarism committed by [the Subject] constituted a significant departure from accepted practices
     of the scientific community."46The Committee also found that "the extent of the plagiarism . . .
     indicated that it was part of a pattern."47

            However, regarding level of intent, "three (3) members of the Committee concluded that
     [the Subject] committed the plagiarism in a reckless manner while four (4) Committee members
     concluded that [the Subject] committed the plagiarism knowingly."48 The Report explained that:

                     In [the Subject's] interview, it appeared that [he] demonstrated a
                     tiered understanding of the need to provide attribution or citations.
                     He seemed to have a clear understanding of the requirement to cite
                     others' publications when writing scientific manuscripts. He also
                     had a clear understanding of the necessity to include only his work
                     and the requirement to cite the work of others in the research plan
                     section of research proposals. However, he did not appear to have
                     a clear understanding of the need to provide attribution or citations
                     in the introduction section of proposals, especially if he judged the
                     information to be general knowledge.r491

             The Committee concluded the Subject's actions constituted a pattern and that his
     plagiarism did affect other researchers "because one SGER proposal containing plagiarized
     material was awarded. Awarding this grant removed finding from the SGER funding pool
     making it unavailable to other researcher^."^'

             The Committee recommended that:

                     The Subject complete a research misconduct course;
                     The Subject teach a graduate-level course on scholarly misconduct for at
                     least two semesters and ensure that the course could be delivered via
                     Internet to fiture graduate students;


42   Tab 15, pg 3.
43   Tab 15, pg 3.
44   SGER proposals (Tabs 7 and 9).
45 Tab   15, pg 5.
46 Tab   15, pg 5.
47 Tab   15, pg 5.
48 Tab   15, pg 5.
49 Tab   15, pg 5.
   Tab   15, pg 4.
                     A senior faculty member or administrator review and approve the
                     Subject's proposals for a period of one year or five proposal submissions
                     (whichever is longer) to assure the proposals meet "scholarly standards."
                     This assurance must also be met for the Subject's next SGER grant, even
                     if it is submitted after that period; and
                     The Subject voluntarily remove himself from serving as an NSF reviewer
                     for one year.51

                               Subiect's Response to Investi~ationReport

             The Subject said he "agree[s] with the committee members' opinion that I should have
     known better" and is "willing to abide by the recommendations of the ~ o m m i t t e e . "He
                                                                                                ~ ~said he
     "want[s] to reiterate that the alleged instances of plagiarism were unintentional and not done
     knowingly," but rather were "mainly due to my flawed perception about the necessity for citation
     of well known scientific facts in a document that was not in the public domain or was not
     submitted for publication." 53 However, the Subject said he disagreed with "the committee's
     determination that the plagiarized material had impact on other researcher^."^^

                                          Universitv Ad i udication

           The Deciding 0fficialS5concurred with the Committee's findings and adopted its
     recommendations in whole.56

                            OIG's Assessment of Civil/Criminal Implications

             OIG noted that some of the text from Proposal 4, an awarded Small Grant for Exploratory
     Research (SGER), was located within the proposal's work plan.57OIG examined the work plan
     and interviewed the Program Director ( P D ) ~responsible
                                                      ~        for awarding the proposal, showing
     him the annotated proposal and source document^.^^ The PD said he was disturbed by one
     annotated section that discussed the project to be ~ndertaken,~'content which he said was
     material to his decision to award the proposal. The PD said the Subiect had even met with him to
     discuss what the PD thought was the8ubject9soriginal idea beforeiubmittin the proposal. "I
     thought that was what he was going to do. That's why I gave him-"              k
            In addition, OIG examined another proposal (Proposal 7),62the only awarded proposal
     the Subject submitted while the investigation was ongoing.63OIG identified 34 lines and 11

"  Tab   15, pg 4.
   Tab   16.
''
52
   Tab   16.
54 Tab   16.
55

56   Tab 17.




60   Tab 4, Source R4.
6' T a h 21).
     embedded references within that proposal that were apparently plagiarized from 6 sources.64
     Notably, three excerpts we annotated in Proposal 7 were identified to the Subject during the
     inquiry and investigation; and, again, some copied text was contained in the methodology
     section.

             OIG referred the matter - that Proposal 4 was awarded based on false information he
     provided verbally and in writing to the PD - to the Assistant United States Attorney ( A U S A ) ~in~
     the Subject's            We emphasized that this was particularly egregious because SGER
     proposals are intended to h n d small scale exploratory high risk research and do not undergo peer
     review. The AUSA declined the case in lieu of administrative action, explaining that the Subject
     did not directly personally benefit from the funds and because "there are strong administrative
     remedies available to the NSF . . . One of these remedies includes debarment of [the Subject] for
     up to five years."67

                                               OIG's Assessment

            A finding of research misconduct by NSF requires that (1) there be a significant departure
     from accepted practices of the relevant research community, that (2) the research misconduct be
     committed intentionally, or knowingly, or recklessly, and that (3) the allegation be proved by a
     preponderance of the e~idence.~'

             OIG concludes the University followed reasonable procedures and produced an accurate
     body of evidence addressing the allegation of plagiarism in the Subject's NSF proposals. OIG
     finds the University's final report adequately responds to the issues identified in our
     investigation referral letter. Therefore, OIG accepts the University's Report and its evidentiary
     record.

          We informed the Subject that we received the Report and asked for any additional
     comments.69The Subject provided OIG a written response,70in which he wrote:

                    I realized that my views and concepts for the draft of unpublished
                    research proposals has been flawed especially for the presentation
                    of basic and well known scientific ideas. I regret my actions and I
                    admit that I should have been more meticulous and careful in
                    attributing a propriate citations and acknowledging authors and
                    websites. 171P




                                                                                                                -

63
  Because OIG examined Proposal 7 after the University's investigation concluded, OIG did not inform the Subject or
the University about plagiarism in Proposal 7.



6' Tab 23.
   45 C.F.R. $689.2(c).
69 ~ a 18.
        b
70 Tab 19.
71
   Tab 19, pg 1.
                                               The Act
                The Subject plagiarized 269 unique lines, 4 unique figures and captions, and 19 unique
     embedded references from 23 source texts within three awarded and three declined NSF
     proposals. The Subject did not contest that the material was copied, but rather contested whether
     the text required citation and whether he had used the source text OIG annotated.

               OIG concurs with the Committee that the Subject significantly departed from the
     accepted standards of the research community in offering text written by others as his own
     words, and in providing those words as emblematic of his own understanding of the research
     field. Similarly, OIG finds that by copying the embedded references from source texts, the
     Subject not only adopted research undertaken by others as his own effort, but misrepresented his
     own effort and underlying body of knowledge in the proposed subject matter.

                                                    Intent
                 OIG concludes the Subject acted knowingly. First, the Subject did include citations
     within the introductory and background sections of his proposals, indicating he was aware that
     citations in those sections are necessary. Second, the Subject included embedded references
     from source texts, suggesting he copied the complete source text into his document and/or that he
     knew the appropriated text required citation. In addition, Proposal 4, a funded SGER proposal,
     contained plagiarized text within the proposal's work plan and within the discussion of future
     experiments, illustrating that plagiarism did not "only" occur in the introductory and background
     sections. Lastly, the extent of plagiarism and the repeated use of some of the plagiarized text
     suggest the Subject's actions were more than reckless.

                                         Standard o f Proof
            OIG concurs with the Committee that the Subject's actions and intent were proven based
     on a preponderance of evidence.

            OIG concludes that the Subject, by a preponderance of evidence, knowingly plagiarized,
     thereby committing an act of research m i s c ~ n d u c t . ~ ~

                                     OIG's Recommended Disposition

            When deciding what appropriate action to take upon a finding of misconduct, IVSF must
     consider:

                     (1) How serious the misconduct was; (2) The degree to which the
                     misconduct was knowing, intentional, or reckless; (3) Whether it
                     was an isolated event or part of a pattern; (4) Whether it had a
                     significant impact on the research record, research subjects, other
                     researchers, institutions or the public welfare; and (5) Other
                     relevant circumstance^.^^




72   45 C.F.R. part 689.
73   45 C.F.R. 5 689.3(b).
1
                                                       Seriousness
             The PI'S actions are an egregious violation of the standards of scholarship, and of the
  fundamental tenets of research ethics. The extent of the plagiarism - approximately 269 unique
  lines, 4 unique figures and captions, and 19 unique embedded references within the original six
  NSF proposals that OIG examined (three awarded, three declined) from 23 source texts - is in
, itself serious. The seriousness is compounded by the Subject's continuing pattern of plagiarism in
  Proposal 7.

                   In addition, the PI'S actions affected not only the PI, but other researchers whose
      proposals were not awarded. Specifically, because the PD said the copied text in Proposal 4
,     influenced his decision to fund the proposal, the NSF program had less money to award to other
      researchers who requested funding out of that program's limited funds. NSF funded onyfl,
:     all FY05 NSF proposals submitted to the proposal's d i r e ~ t o r a t eThe  . ~ ~ division7' which awarded
      the SGER to the Subject is part of that directorate. In contrast to t h e f u n d i n g rate for the
      directorate as a whole, NSF f u n d e d f t h e of the SGER proposals submitted to
      that d i r e ~ t o r a t e .Proposal
                                   ~~      4, containing the copied text, therefore benefited from the higher
      funding rate of the SGER proposals in that directorate relative to the other proposals.

               Lastly, the PI continues to demonstrate a lack of understanding regarding NSF's
      expectations as stated in the Grant Proposal Guide:

                          NSF expects strict adherence to the rules of proper scholarship and
                          attribution. The responsibility for proper attribution and citation
                          rests with authors of a proposal; all parts of the proposal should be
                         ,prepared with equal care for this concern. [771

                                         Degree to which Action was Knowing                                           /


                     The act of plagiarism is generally an act done knowingly. In submitting the NSF
           proposals, the Subject clearly knew he had copied the text, copied the figures, and included
           embedded references without attribution. The Subject did not contest that the material was
I
           copied without citation, but rather contested whether the copied text required citation at all and
           whether he had used the specific source text OIG annotated.

                   The Subject's professional experiences also suggest he knew he was violating several
           tenets of the research community. First, the Subject has been a professor since 2002 at a




     -::
'I
  76 Statistics are from the Report to the National Science Board on the National Science Foundation's Merit Review
' Process Fiscal Year 2006.
1 77 NSF 04-23, GPG Section I.D.3.
  7 s ~ a 11.
          b
             Furthermore, the PI has more than 100 publications in journals and conference
     proceedings, has five published book chapters, has been cited more than 500 times in the IS1
     citation databa~e;~'and serves as a reviewer for           Many of the academic society's that




     accepted standards of research ethics. For example, the National Academies, in which the
     National Research Council is a part, published in 1994 a document entitled "On Being a
     Scientist: Responsible Conduct in Research." The document defines, discusses, and provides
     examples of misconduct in science.86

            In addition, the Grant Proposal Guide clearly articulates NSF's expectations. The Subject
     has submitted 28 proposals to NSF since 2002 and, as such, should be familiar with NSF
     requirements.

                                                   Pattern
            OIG concludes the current evidence - continued plagiarism of some of the same
     materials within Proposal 7 in addition to the plagiarism identified in the original six proposals -
     supports a finding of pattern within the Subject's actions.

                                              Other Relevant Factors
             The Subject accepted the Committee's findings and recommendations. The Subject will
     be taking a course on research misconduct and will be teaching a course on scholarly misconduct
     in Fall 2007.'~ Also, the Subject expressed to OIG in his letter regarding the Report that he was
     remorseful and learned from this experience. 88

                                             Recommendation

             Based on the evidence, OIG recornminds that NSF:




                                                                  Term is April 2006-March 2008.
85   Information found in PI'S CV (Tab 1).
86                                                  (Tab 26).
87
     Tab 19, pg 1-2.
     Tab 19.
                        send a letter of reprimand to the Subject informing him that NSF has made
                        a finding of research m i s c o n d ~ c t ; ~ ~

                        debar the Subject from receiving Federal funds or participating in any
                        federally-funded project for a period of 2 years commencing on the date of
                        NSF's finding of research m i s c o n d u ~ t ; ~ ~

                        require the Subject to certify to OIG's Associate Inspector General for
                        Investigations (AIGI) that proposals or reports he submits to NSF do not
                        contain plagiarized material for 2 years after the debarment period;91

                        require that the Subject submit assurances by a responsible official of his
                        employer to AIGI, OIG, that any proposals or reports submitted by the
                        subject to NSF do not contain plagiarized material for 2 years after the
                        debarment period;92

                    ,   bar the Subject from serving NSF as a reviewer, advisor, or consultant for
                        2 years commencing on the date of NSF's finding of research
                        r n i s c ~ n d u c tand
                                             ;~~

                        require the Subject to complete an ethics course within 1 year and provide
                        certification of its completion to OIG upon completion.

                             The Subiect's Response to Draft Investigation Report

             We provided the Subject with a copy of our draft report and attachments, and afforded
     him the opportunity to comment.94 The Subject supplied a detailed response.95 In his response
     he said he already completed a number of self-imposed and University-imposed remedial
     actions.96 He clarified the allegations regarding Proposal 7, stating that OIG annotated short
     segments of text some of which were text common to the discipline,97some of which he had
     permission to use,98some of which he was unaware he included in previous proposals,99and


89   A letter of reprimand is a Group I action (45 C.F.R. §689.3(a)(l)(i)).
90
   Debarment of an individual is a Group 111 action (45 C.F.R. §689.3(a)(3)(iii)). The draft report recommended 3
years debarment, certifications, assurances, and barring from serving as an NSF reviewer, advisor, or consultant.
Based on the Subject's response and the length of the investigation due to interaction with an AUSA, our office
decided to lower these recommendations to 2 years.
91
   Certification by an individual is a Group I action (45 C.F.R. §689.3(a)(l)(iii)).
92
   Requirement for assurances is a Group I action (45 C.F.R. §689.3(a)(l)(iii)).
93
   Prohibition from serving as a reviewer is a Group 111 action (45 C.F.R. §689.3(a)(3)(ii)).
94 Tab 27.
95 Tab 28.
96 Tab 28, pg 4-5.
97 Tab 28, pg 9.
98 Tab 28, pg 7-8. The Subject had obtained permission from the authors of Sources A and R during the initial inquiry,
and therefore believed he now had blanket permission to use material from these sources uncited. The Subject fails to
realize that such permission may absolve him of copyright infringement liability, but it does not remedy the fact that
he is representing someone else's text as his own to NSF.
99 Tab 28, pg 2. The Subject said he did not receive a copy of investigation materials from OIG or the University due
to an incorrect address we had on file. Nonetheless, following his interview with the Investigation Committee where
he became aware of these documents, the Subject did not contact our office to request they be resent.
                                                              14
  some of which came from a different source than OIG annotated.'OO Overall, he argued that he
  often did include references in Proposal 7,"' and that he submitted this proposal before he took
  the ethics course. Lastly, the Subject contested the originality of Proposal 4, stating that his idea
  was indeed novel, as evident from the numerous publications stemming from the project.102The
  Subject concluded that the implications of our recommendations would be far-reaching, both
  within his own University and its student body, as well as other universities with which he is
  affiliated.

           We examined the Subject's comments and noted:

                    Actions taken by the University are within the scope of University policy and
                    sphere of influence. University actions may inform NSF and OIG as to the
                    University's assessment of the matter; however, recommendations we make must
                    consider NSF and the sdope of the broader Federal interest.'03

                    The Subject's statements regarding Proposal 7 do not alter our analysis. We
                    reviewed Proposal 7 as part of our assessment of the Subject's potential civil and
                    criminal liabilities in this case. For the administrative investigation (i.e.,the
                    research misconduct investigation under 45 C.F.R. part 689)' Proposal 7 is offered
                    for the sole purpose of demonstrating that the Subject maintained pattern of
                    copying text without proper attribution during the course of the investigation. As
                    the subject of an ongoing investigation for plagiarism, the Subject should have
                    been more vigilant in his subsequent proposal submissions with regard to both the
                    lines used in previous proposals under investigation and lines from new sources.

                    In regard to Proposal 4, the Program Officer who funded the SGER Award stated
                    unequivocally that he would not have funded the proposal had he been aware that
                    someone else had previously published the results of the project that was part of
                    the subject matter the Subject copied. While the Program Officer may not have
                    been aware of the source document at the time the proposal was submitted, the
                    Subject has not refuted how the unattributed text appeared in his work,
                    representing the novelty of the idea.




loo Tab 28, pg 12. The Subject said Source V1 was instead text from a collaborator's website. Examination of the
website did indicate the collaborator's use of such text, potentially mitigating the Subject's use of 3 lines of text.
lo' Tab 28, pg 9-10. We note that the references to which the Subject is referring are indeed embedded references,
copied along with the uncited text, rather than references to the actual source the Subject used.
Io2 Tab 28, pg 14.
Io3 Tab 28, Annexure A-1 and Annexure A-2 provide documentary evidence that the Subject completed ethics training
thereby fulfilling our recommendation that he attend an ethics course.
                                                           15
                                  NATIONALSCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




                                        FEB 1 9 2009
     OFFICE OF THE
    DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re: Notice of Proposed Debarment and Notice of Research Misconduct Determination


Dear Dr. Neogi:

From             , the University submitted six proposals to the National Science Foundation
('NSF" or the "Foundation"), for which you were identified as the Principal Investigator. As
documented in the attached investigative report prepared by NSF's Office of Inspector General
("OIG"), these proposals contained plagiarized material.

In light of your misconduct, this letter serves as formal notice that NSF is proposing to debar you
fiom directly or indirectly obtaining the benefits of Federal grants for a period of two years.
During your period of debarment, you will be precluded fiom receiving Federal £inancia1 and non-
financial assistance and benefits under non-procurement Federal programs and activities. In
addition, you will be prohibited fiom receiving any Federal contracts or approved subcontracts
under the Federal Acquisition Regulations ("FAR"). Lastly, during your debarment period, you
will be barred fiom having supervisory responsibility, primary management, substantive control
over, or critical influence on, a grant, contract, or cooperative agreement with any agency of the
Executive Branch of the Federal Government.

In addition to proposing your debarment, I am prohibiting you fiom serving as an NSF reviewer,
advisor, or consultant until February 17,201 1. Furthermore, for two years after the period of
debarment expires, I am requiring that you submit certifications, and that a responsible official of
your employer submit assurances, that any proposals or reports you submit to NSF do not contain
plagiarized, falsified, or fabricated material. Lastly, by February 17, 201 0, you must complete an
ethics training course on plagiarism, and certifjr in writing to the OIG that you have done so.
                                                                                                Page 2
Research Misconduct and Sanctions other than Debarm-ent

Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
plagiarism in proposing or performing research funded by NSF ..." 45 CFR 5 689.1(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR 5 689.1 (a)(3). A finding of research misconduct
requires that:

        (1) There be a significant departure fiom accepted practices of the relevant research
            community; and
        (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
        (3) The allegation be proven by a preponderance of evidence.

45 CFR 5 689.2(c).

Your proposals contained verbatim and paraphrased text, as well as figures, fiom numerous other
source documents. By submitting a proposal to NSF that copies the ideas or words of another
without adequate attribution, as described in the OIG investigative report, you misrepresented
someone else's work as your own. In addition, you.failed to properly acknowledge or credit the
authors of the source documents in your proposals. Your conduct unquestionably constitutes
plagiarism. I therefore conclude that your actions meet the applicable definition of "research
misconduct" set forth in NSF's regulations.

Pursuant to NSF's regulations, the Foundation must also determine whether to make afinding of
misconduct based on a preponderance of the evidence. 45 CFR 5 689.2(c). After reviewing the
Investigative Report, NSF has determined that, based on a preponderance of the evidence, your
plagiarism was committed knowingly and constituted a significant departure fiom accepted
practices of the relevant research community. I am, therefore, issuing a finding of research
misconduct against you.

NSF's regulations establish three categories of actions (Group I, 11, and 111) that can be taken in
response to a finding of misconduct. 45 CFR §689.3(a). Group I actions include issuing a letter
of reprimand; conditioning awards on prior approval of particular activities fiom NSF; requiring
that an institution or individual obtain special prior approval of particular activities f b m NSF; and
requiring that an institutional representative certifj as to the accuracy of reports or certifications
of compliance with particular requirements. 45 CFR $689.3(a)(l). Group I1 actions include
award suspension or restrictions on designated activities or expenditures; requiring special
reviews of requests for funding; and requiring correction to the research record. 45 CFR
$689.3(a)(2). Group I11 actions include suspension or termination of awards; prohibitions on
participation as NSF reviewers, advisors or consultants; and debarment or suspension fiom
participation in NSF programs. 45 CFR 5 689.3(a)(3).
                                                                                              Page 3
In determining the severity of the sanction to impose for research misconduct, I have considered
the seriousness of the misconduct; our determination that it was committed knowingly; the fact
that one of the proposals containing plagiarism evaded merit review because it was submitted and
awarded under the Small Grants for Exploratory Research program; and the fact that you
submitted an additional proposal containing plagiarized text after you became aware you were
under investigation for plagiarism. I have also considered other relevant circumstances. 45 CFR
8 689.3(b).
I, therefore, take the following actions:

       For two years fiom the end of your debarment period, you are required to submit
       certifications that any proposals or reports you submit to NSF do not contain plagiarized,
       falsified, or fabricated material.

       For two years fiom the end of your debarment period, you are required to submit
       assurances by a responsible official of your employer that any proposals or reports you
       submit to NSF do not contain plagiarized, falsified, or fabricated material.

       From the date of this letter through February 17,201 1, you are prohibited fiom-serving as
       an NSF reviewer, advisor, or consultant.

       You are required to complete an ethics training course on plagiarism by February 17,
       2010. You must certifL in writing to the OIG that such training has been completed.

All certifications and assurances should be submitted in writing to the Office of Inspector General,
Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington, Virginia
22230.


Debarment

Regulatory Basis for Debarment

Pursuant to 2 CFR 180.800, debarment may be imposed for:

       (b)     Violation of the terms of a public agreement or transaction so serous as to affect
               the integrity of an agency program, such as - .

               (1)     A willful failure to perform in accordance with the terms of one or more
                       public agreements or transactions; or


               (3)     A willf'bl violation of a statutory or regulatory provision or requirement
                       applicable to a public agreement or transaction
                                                                                           Page 4
In any debarment action, the government must establish the cause for debarment by a
preponderance of the evidence. 2 CFR 180.850. In this case, you knowingly plagiarized material
in six grant proposals submitted to the Foundation. Thus, your action supports a cause for
debarment under 2 CFR 180.800(b).


Length of Debarment

Debarment must be for a period commensurate with the seriousness of the causes upon which an
individual's debarment is based. 2 CFR 180.865. Generally, a period of debarment should not
exceed three years but, where circumstances warrant, a longer period may be imposed. 2 CFR
180.865. Having considered the seriousness of your actions, as well as the relevant aggravating
and dtigating factors set forth in 2 CFR 180.860, we are proposing debarment for a period of
two years.


Appeal Procedures for Finding of Research Misconduct and Procedures Governing
Proposed Debarment


Appeal Procedures for Finding of Research Misconduct

Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
finding, in writing, to the Director of the Foundation. 45 CFR 689.1 O(a). Any appeal should be
addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard, Arlington,
Virginia 22230. If we do not receive your appeal within the 30-day period, the decision on the
finding of research misconduct will become h a l . For your information, we are attaching a copy
of the applicable regulations.


Procedures Governing Proposed Debarment

The provisions of 2 CFR Sections 180.800 through 180.885 govern debarment procedures ind
decision-making. Under our regulations, you have 30 days after receipt of this notice to submit,
in person or in writing, or through a representative, information and argument in opposition to
this debarment. 2 CFR 180.820. Comments submitted within the 30-day period will receive fill
consideration and may lead to a revision of the recommended disposition. If NSF does not
receive a response to this notice within the 30-day period, this debarment will become final.

Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
Foundation, Office of the General Counsel, 420 1 Wilson Boulevard, Room 1265, Arlington,
Virginia 22230. For your information, we are attaching a copy of the Foundation's regulations on
non-procurement debarment and FAR Subpart 9.4.
                                                                            Page 5
Should you have any questions about the foregoing, please contact
        at (703)          .



                                                   Sincerely,



                                                   Cora Marrett
                                                   Acting Deputy Director


Enclosures:
Investigative Report
Nonprocurement Debarment Regulations
FAR Regulations
45 CFR Part 689
                                   NATIONALSCIENCE FOUNDKTION
                                        4201 WILSON BOULEVARD
                                       ARLINGTON, VIRGINIA 22230             _.
                                                                              ..-
                                                                                 .


                                        MAY 2 2 2009

    OFFICE OF THE
   DEPUTY DIRECTOR




VIA CERTIFIED MAILMTURN RECEIPT REQUESTED

Dr. A r u Neoei
          ~




        Re: Debarment


Dear Dr. Neogi:

On February 19,2009, the National Science Foundation ("NSF") sent you a Notice of Proposed
Debarment and Notice of Research Misconduct Determination in which NSF proposed to debar
you h m directly or indirectly obtaining the benefits of Federal grants for a period of two years.
The Notice sets forth in detail the circumstances giving rise to NSF's decision to propose your
debarment. Specifically, NSF proposed your debarment for submitting six proposals to NSF that
contained plagiarized text. In the Notice, NSF provided you with an opportunity to respond to
the proposed debarment.

On March 16, 2009, you filed a timely response to the Notice. In this response, you urged NSF
not to debar you for several reasons including: (I) the
                   proposal was prepared by                         (2) the plagiarized text in the
Small Grants for Exploratory Research ("SGER) proposal was insignificant because the
proposal outlined a novel method for performing the research; (3) no fiuther punishment is

                                                                         '
appropriate because your.university has already imposed sanctions on you; and (4) you have
served NSF in numerous capacities with no financial compensation. As detailed below, a
debarment action against you is warranted because you submitted six proposals with plagiarized
text to NSF. I have determined, however, that                         was the primary author of
the        pr0,posal. Thus, I am debarring you for eighteen months, instead of the two-year
debarment period initially proposed. I do not find any of your other arguments persuasive.



 ,YourMarch 16,2009 response also appealed the other administrative actions that NSF imposed on you
in its February 19,2009letter. In accordance with NSF regulations, the decision on your appeal of these
actions will be issued by the NSF Director under separate cover.
First, with your submission, you provided copies of electronic mail exchanges between you and
                          in which             accepts responsibility for drafting the
proposal. Thus, you should not bear primary responsibility for the plagiarism contained in this
proposal. Although, as the principal investigator, you are not blameless in this matter, I do not
believe it is justified to use the plagiarism contained in the proposal to suggest, as the OIG did in
its investigative report, that you will continue to engage in improper research practices. Thus, a
six-month reduction in the debarment period initially proposed is appropriate.

I am not persuaded that any m h e r reductioq of the proposed debarment period is appropriate,
however. With respect to the SGER proposal you concede that some of the text in the proposal
was plagiarized. Although you aver that the proposal was groundbreaking because it contained a
novel material system, the cognizant program officer for this grant unequivocally stated that the
copied text in the proposal influenced his decision to h n d the proposal. The fact that only a
portion of the NSF proposal may have been plagiarized does not mitigate the seriousness of the
offense.                                    \




In addition, NSF considered the actions previously taken against you by your university for your
misconduct. Unlike the university, however, NSF has an obligation to protect the interests of the
Federal government. Notwithstanding the university sanctions imposed in this matter, NSF has
determined that debarment and other administrative actions are necessary to protect the
government's interests. The university's previous actions do not preclude NSF fiom doing so.

Lastly, your service to NSF and the scientific community at large is commendable. Such
service, however, is not relevant to the determination of whether research misconduct has
occurred,, or what the appropriate sanctions are for such misconduct.

For all of the foregoing reasons, you are debarred until August 19,2010. Debarment precludes
you from receiving Federal financial and non-financial assistance and benefits under non-
procurement Federal programs and activities unless an agency head or authorized designee
makes a determination to grant an exception in accordance with 2 CFR Section 180.1 35. Non-
procurement transactions include grants, cooperative agreements, scholarships, fellowships,
contracts of assistance, loans, loan guarantees, subsidies, insurance, payments for specified use,
and donation agreements.

In addition, you are prohibited fiom receiving Federal contracts or approved subcontracts under
the Federal Acquisition Regulations ("FAR") at 48 CFR Subpart 9.4 for the period of this
debarment. 2 CFR Section 180.170. During the debarment period, you may not have
supervisory responsibility, primary management, substantive control over, or critical influence
on, a grant, contract, or cooperative agreement with any agency of the Executive Branch of the
Federal Government.

Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
decision, in writing, to the Director of NSF. 45 CFR Section 689.1 O(a). Any appeal should be
addressed to the Director at:
              National Science Foundation
              420 1 Wilson Boulevard
              Arlington, Virginia 22230

If we do not receive your appeal within the 30-day period, this decision will become final.

If you have any questions regarding the fbregoing, please contact
         National Science Foundation, Office of the General Counsel, 4201 Wilson Boulevard,
Room 1265, Arlington, Virginia, 22230.




                                                    Sincerely,

                                                     L            A-    ah-
                                                    CoraB. Marrett
                                                    Acting Deputy Director
                                 NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




                                           MAY 22.2009
      OFFICE OF THE
        DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re: Decision on Appeal of Research Mkconduct Determination


Dear Dr. Neogi:

On February 19, 2009, Dr. Cora Marrett, NSF's Acting Deputy Director, issued a Notice of
Proposed Debarment and Notice of Research Misconduct Determination to you. In this Notice,
NSF proposed to debar you for a period of two years. In addition to proposing your debarment,
NSF: (1) required that you submit certifications and assurances in connection with any proposal
or reports you submit to NSF for two years after the expiration of your debarment period; (2)
prohibited you fiom serving as an NSF reviewer, advisor, or consultant until February 17,2011;
and (3) mandated that you complete an ethics training course on plagiarism by February 17,
2010. On March 16,2009, you simultaneously responded to the proposed debarment and
appealed the other administrative actions taken against you by NSF. A final decision on the
proposed debarment will be issued by Dr. Manett under separate cover. This letter constitutes
my decision on your appeal of the other administrative actions taken against you.

In your March 16 submission, you urged that NSF rescind the administrative actions referenced
above for four primary reasons: (1) one of the proposals at issue was prepared by
        ; (2) the plagiarized text in the Small Grants for Exploratory Research ("SGER) proposal
was insignificant because the proposal outlined a novel method for performing the research; (3)
the actions are overly punitive because the University has already imposed sanctions on you for
your actions; and (4) you have served NSF in numerous capacities with no compensation.

Your appeal is denied. You do not dispute that you submitted six proposals to NSF that contain
plagiarized text. Your actions in this regard are a serious deviation, and a significant departure,
fiom the accepted practices of your research community. In arriving at its decision, NSF
                                                                                              Page 2
considered the action previously taken by the university as a mitigating factor. We believe,
however, that to adequately protect the interests of the Federal government, your misconduct
warrants a more severe response than that imposed by the university.

This is NSF's final administrativi action ,inthis case. There is no further right of appeal as to
NSF's imposition of the administrative actio,ns referenced in this letter. If you have any
questions about the foregoing, please call Lawrence Rudolph, General Counsel, at (703) 292-
8060.


                                                      Sincerely,


                                                      Arden L. Bement, Jr.     )-
                                                      Director
